Office of Audits and Evaluations
Report No. AUD-14-004


The FDIC’s Actions to Address Consumer
Protection Violations and Deficiencies




                                   March 2014
                                    Executive Summary

                                    The FDIC’s Actions to Address Consumer
                                    Protection Violations and Deficiencies
                                                                                    Report No. AUD-14-004
                                                                                               March 2014

Why We Did The Audit
FDIC-supervised financial institutions are responsible for developing and implementing compliance
management systems to ensure compliance with federal consumer protection laws and regulations. The
FDIC routinely examines these institutions for potential deficiencies in their compliance management
systems and for potential violations of consumer protection laws and regulations. Compliance
examinations and follow-up supervisory attention help to ensure that consumers obtain the benefits and
protection afforded to them under the law. Given the importance of this area, we conducted this audit.

The objective of this performance audit was to determine whether the FDIC’s actions to address
consumer protection violations and deficiencies comply with applicable policies, procedures, and
guidelines and the extent to which the actions are consistently handled by the Division of Depositor and
Consumer Protection’s (DCP) Regional Offices. The FDIC Office of Inspector General engaged the
independent professional services firm of KPMG LLP to provide assistance on the audit.

Background
Within the FDIC, DCP has primary responsibility for examining institutions for compliance with fair
lending, privacy, and various other consumer protection laws and regulations. Examiners document the
results of their work in compliance examination reports, which are provided to the institution’s
management and Board of Directors. Examiner recommendations and discussions with management
generally result in the correction of identified violations and deficiencies. However, when such efforts
are not successful, or when violations or deficiencies are significant, the FDIC may take stronger steps in
the form of informal supervisory actions or formal enforcement actions against an institution or
responsible individuals. Such actions can include the assessment of civil money penalties (CMP) or
orders to pay restitution to consumers who were harmed because of violations. The FDIC typically
performs follow-up examinations or onsite visits within 12 months of completing an examination that
assigns a “4” or “5” compliance rating.

DCP has developed a formal consultation process that requires officials in the Regional Offices and the
Washington Office to consult on significant, unusual, and emerging supervisory matters, including
supervisory actions, violations of certain laws and regulations, and weak compliance ratings. The
consultation process is intended to help ensure appropriate, consistent, and timely consideration of such
matters.

Audit Results
We found that the FDIC’s actions to address the consumer protection violations and deficiencies that we
reviewed generally aligned with applicable policies, procedures, and guidelines. In addition, compliance
examination reports identified the specific laws and regulations that were violated, the nature and causes
of the violations, the recommended corrective actions, and the responses of the institutions’ management.
Further, follow-up examinations or visits were conducted timely, and CMPs that the FDIC issued were
well supported and documented and included a legal opinion that addressed consideration of applicable
laws, violations, mitigating factors, and monetary penalties.



                                                     i

                               To view the full report, go to www.fdicig.gov
                                     The FDIC’s Actions to Address Consumer
  Executive Summary
                                     Protection Violations and Deficiencies
                                                                                     Report No. AUD-14-004
                                                                                                March 2014

While the above results are positive, the FDIC’s compliance information systems used to record, track,
and monitor consumer compliance activities did not always contain pertinent information on the
following compliance activities:

       the basis for decisions on whether and what type of supervisory action should be taken,
       restitutions to consumers, and
       consultations among DCP officials regarding proposed supervisory actions.

In some cases, this information was maintained outside of the FDIC’s compliance information systems in
memoranda and other documents. Recording and tracking key supervisory information in a consistent
and centralized manner helps to ensure its reliability, reduces the amount of time and effort needed to
locate information and respond to inquiries, and mitigates the risk associated with staff turnover. Such an
approach also provides increased assurance of consistency in the supervision of institutions.

DCP has established a number of internal controls to promote consistency among its Regional Offices in
the handling of actions to address violations and deficiencies. Such controls include the Compliance
Examination Manual, the Formal and Informal Action Procedures Manual, the National Review Examiner
Manual, a consultation process, restitution tracking procedures, and the compliance examination report
review process. In addition, the FDIC established the Case Review Committee and has issued guidance
to examiners on consumer protection matters to help ensure a consistent supervisory approach. Further,
the supervisory matters that we reviewed, including actions taken to address violations and deficiencies,
generally appeared to be consistently handled by DCP’s Regional Offices. However, we did note
differences among DCP’s regional consultation policies and procedures that the FDIC should consider as
part of its initiative to update those procedures for consistency with recently-issued national consultation
procedures.

Our report also includes an observation that DCP’s guidance to examiners on assigning compliance
ratings allows more flexibility than the definitions provided in the Uniform Interagency Consumer
Compliance Rating System (UICCRS). DCP officials informed us that there have been high-level
discussions among Federal Financial Institutions Examination Council participants about the need to
clarify the UICCRS ratings definitions. Finally, we identified two potential control improvements that we
did not consider significant in the context of the audit objective. We communicated those potential
control improvements separately to DCP management.

Recommendations and Corporation Comments
Our report contains four recommendations addressed to the Director, DCP, that are intended to improve
DCP’s internal controls for addressing consumer protection violations and deficiencies identified during
compliance examinations. The Director, DCP, provided a written response, dated March 17, 2014, to a
draft of this report. In the response, the Director concurred with all four of the report’s recommendations
and described planned corrective actions that address the recommendations. With respect to the report’s
observation, the Director, DCP, plans to contact other agencies to determine whether there is mutual
interest in updating the UICCRS definitions.




                                                     ii

                               To view the full report, go to www.fdicig.gov
                                  Contents

                                                             Page
Background                                                     2

Audit Results                                                  5

Recording Supervisory Information in the FDIC’s Compliance     6
Information Systems

Regional Consultation Policies and Procedures                 10

Observation: Consumer Compliance Rating System                11

Corporation Comments and OIG Evaluation                       12

Appendices
     1. Objective, Scope, and Methodology                     13
     2. Glossary of Terms                                     18
     3. Acronyms and Abbreviations                            21
     4. Corporation Comments                                  22
     5. Summary of the Corporation’s Corrective Actions       25

Tables
      1. Institutions Selected for Review                     14
      2. Institutions Actually Reviewed                       15
Federal Deposit Insurance Corporation                                             Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                          Office of Inspector General


DATE:                                       March 28, 2014

MEMORANDUM TO:                              Mark E. Pearce, Director
                                            Division of Depositor and Consumer Protection


                                            /Signed/
FROM:                                       Stephen M. Beard
                                            Deputy Inspector General for Audits and Evaluations

SUBJECT:                                    The FDIC’s Actions to Address Consumer Protection
                                            Violations and Deficiencies (Report No. AUD-14-004)


This report presents the results of our audit of the FDIC’s actions to address consumer
protection violations and deficiencies identified during compliance examinations.
FDIC-supervised financial institutions are responsible for developing and implementing
compliance management systems to ensure compliance with federal consumer protection
laws and regulations.1 The FDIC routinely examines these institutions for potential
deficiencies in their compliance management systems and for potential violations of
consumer protection laws and regulations. Although violations and deficiencies can
often be addressed through examiner recommendations and discussions with the
management of the institution, serious matters may result in monetary penalties and
enforcement actions against the institution.

The audit objective was to determine whether the FDIC’s actions to address consumer
protection violations and deficiencies comply with applicable policies, procedures, and
guidelines and the extent to which the actions are consistently handled by the Division of
Depositor and Consumer Protection’s (DCP) Regional Offices. To address our objective,
we interviewed officials in DCP and the FDIC’s Legal Division about the Corporation’s
processes for addressing consumer protection violations and deficiencies and for ensuring
a consistent approach. We also reviewed supervisory information related to a non-
statistical sample2 of 93 FDIC-supervised financial institutions for which DCP had
identified violations or deficiencies, issued a supervisory action, or referred a violation to
another federal agency. 3




1
  Terms that are underlined when first used in this report are defined in Appendix 2, Glossary of Terms.
2
  A non-statistical sample is judgmental and cannot be projected to the population. See Appendix 1 for
details regarding our sampling methodology.
3
  For the purposes of this report, supervisory actions broadly include informal actions such as Bank Board
Resolutions (BBR), Memoranda of Understanding (MOU), and voluntary restitutions, and formal
enforcement actions such as Civil Money Penalties (CMP), cease-and-desist orders (C&D)/consent orders
(CO), and restitution orders. Referrals to other agencies are not considered to be supervisory actions.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report includes additional information about our
objective, scope, and methodology; Appendix 2 contains a glossary of key terms;
Appendix 3 contains a list of acronyms and abbreviations; Appendix 4 contains the
Corporation’s comments on this report; and Appendix 5 contains a summary of the
Corporation’s corrective actions.


Background
The FDIC has statutory responsibility for examining the financial institutions it
supervises for compliance with fair lending, privacy, and various other consumer
protection laws and regulations.4 Within the FDIC, DCP has primary responsibility for
directing and managing compliance examinations, policy, research, and enforcement
activities related to consumer protection and community affairs. DCP relies on
compliance examinations as the primary means for determining whether financial
institutions meet their responsibility for complying with consumer protection laws and
regulations. DCP examines institutions every 12-36 months, depending on the
institution’s size and compliance and Community Reinvestment Act (CRA) ratings
assigned at the most recent examination. According to DCP’s Compliance Examination
Manual, examiners perform the following steps during compliance examinations:

       assess the quality of the institution’s compliance management system for
        implementing federal consumer protection statutes and regulations,

       review compliance with relevant laws and regulations, and

       initiate supervisory action when elements of an institution’s compliance
        management system are deficient or when significant violations of law are found.

At the conclusion of an examination, examiners discuss their findings and
recommendations with the institution’s management and obtain a commitment for
corrective action, if warranted. Examiners document the results of their work (including
both strengths and weaknesses in the institution’s compliance management system) in
compliance examination reports, which are provided to the institution’s management and
Board of Directors. Under certain circumstances, the FDIC must refer violations
identified by examiners to other federal agencies, such as the Department of Justice
(DOJ), when there is reason to believe that a pattern or practice of discouraging or
denying applications for credit exists in violation of ECOA’s general rule prohibiting
discrimination. The FDIC must also notify the Department of Housing and Urban
Development (HUD) of certain violations of the FHAct.

4
  Such laws include the Equal Credit Opportunity Act (ECOA), Fair Housing Act (FHAct), Home
Mortgage Disclosure Act (HMDA), Real Estate Settlement Procedures Act (RESPA), and Truth in Lending
Act (TILA). The FDIC and other federal agencies issue regulations for implementing consumer protection
laws, as appropriate. The FDIC also coordinates with other regulatory agencies, such as the Consumer
Financial Protection Bureau (CFPB), on relevant consumer protection matters.


                                                  2
Except where DCP management determines it is unnecessary, a follow-up examination or
onsite visit is conducted within 12 months of completing any examination that assigns a
“4” or “5” compliance rating. The purpose of the follow-up is to assess the institution’s
implementation of corrective actions. Additional follow-up is performed when initial
corrective actions are determined to be insufficient. An institution’s progress in
implementing informal or formal supervisory actions is typically assessed through
quarterly progress reports from, and direct communication with, the management of the
institution. In addition, the FDIC’s Legal Division supports DCP in its supervisory
activities. For example, the Legal Division reviews and opines on proposed enforcement
actions.

The FDIC follows the Uniform Interagency Consumer Compliance Rating System
(UICCRS), approved by the Federal Financial Institutions Examination Council (FFIEC),
when conducting compliance examinations. Under this system, financial institutions are
assigned a consumer compliance rating based on an evaluation of the nature and extent of
the institution’s compliance with consumer protection and civil rights laws and
regulations and the adequacy of their operating systems designed to ensure compliance
on a continuing basis. Ratings are based on a scale of 1 to 5, with 1 indicating a strong
compliance position and 5 indicating an institution in need of the strongest supervisory
attention. The majority of FDIC-supervised institutions have ratings that reflect
satisfactory or strong consumer compliance programs. Only 234 institutions—less than
6 percent of all FDIC-supervised institutions—were rated “3,” “4,” or “5” for consumer
compliance purposes as of December 31, 2013.

Supervisory Actions

Frequently, examiner recommendations and discussions with management result in the
correction of identified violations and deficiencies. When such efforts are not successful,
or when the violations or deficiencies are significant, the FDIC may take stronger steps in
the form of supervisory actions against an institution or responsible individuals. Many
factors must be considered in determining whether a supervisory action should be taken.
According to the FDIC’s Formal and Informal Action Procedures Manual (FIAP
Manual), such actions may be appropriate under the following circumstances.

      Informal actions are generally appropriate for institutions with a composite
       “3” rating for compliance. This rating indicates that the institution has
       weaknesses that, if left uncorrected, could cause the institution’s compliance
       position to deteriorate.

      Formal actions are generally appropriate for institutions with a composite “4” or
       “5” rating for compliance, such as when there is a high volume or severity of
       violations.

DCP has developed a formal consultation process that requires officials in the Regional
Offices and the Washington Office to consult on significant, unusual, and emerging
supervisory matters, including supervisory actions, violations of certain laws and


                                             3
regulations, and weak compliance ratings.5 The consultation process is intended to help
ensure appropriate, consistent, and timely consideration of such matters. In addition, the
FDIC’s Board of Directors has established a Case Review Committee (CRC) to review
and approve or disapprove proposed orders or notices with respect to certain enforcement
actions. As it relates to compliance matters, the CRC has authority over proposed actions
to order restitution and assess CMPs—except CMPs related to Flood Insurance
violations—and to review certain other compliance-related enforcement actions, such as
those that may affect corporate policy or attract unusual attention or publicity.

During 2013, the FDIC issued 161 supervisory actions, consisting of 80 informal and
81 formal actions, to address consumer protection matters. In addition to BBRs and
MOUs, the informal actions included 10 voluntary restitutions made by institutions in the
form of refunds to consumers who were harmed by the institutions’ failure to comply
with various laws. Formal actions may also impose requirements for institutions to pay
restitution. In 2013, the FDIC ordered 6 institutions to pay almost $47 million in
restitution to over 387,000 consumers. These refunds related to unfair or deceptive acts
or practices (UDAP) by institutions. The FDIC also issued 54 CMPs totaling over
$10 million payable to the Department of the Treasury (Treasury) in 2013. The majority
of these CMPs involved Flood Insurance, UDAP, or ECOA violations.

Information Systems

The FDIC’s System of Uniform Reporting of Compliance and CRA Examinations
(SOURCE) and the Formal and Informal Action Tracking System (FIAT) are the primary
information systems used by DCP to support compliance supervisory activities.
SOURCE is DCP’s system of record for data and documents associated with examination
activities. The system is used to support examination and review processes, reporting,
management and policy decisions, and strategic planning. FIAT is a module within the
FDIC’s Virtual Supervisory Information On the Net System (ViSION) and serves as the
central source of information for informal and formal actions. SOURCE is relied upon at
all levels of DCP and by external stakeholders, including the Treasury, CFPB, and state
banking authorities. DCP also uses various other information systems, such as the
Regional Automated Document Distribution and Imaging System (RADD) and the
Regional Report Repository (R3), to support compliance supervisory activities. For
purposes of this report, we collectively refer to SOURCE, FIAT, RADD, and R3 as the
FDIC’s compliance information systems.

In the course of performing our work, we found that the FDIC’s compliance information
systems were generally not well integrated, did not always support DCP’s workflow
processes or activities that we reviewed, and sometimes lacked relevant data or contained

5
 The process is defined in Regional Directors Memoranda (RD Memorandum), entitled Consultation
Process for Compliance and CRA Examinations (Transmittal No. 2011-26, dated November 18, 2011) and
Consultation Policies and Procedures for Consumer Compliance and Community Reinvestment Act Issues
(Transmittal No. 2008-42, dated December 30, 2008). These transmittals were superseded by RD
Memorandum, Consultation Process for Compliance and CRA Examinations (Transmittal No. 2013-013-
DCP, dated December 13, 2013).


                                                4
redundant data. These weaknesses present a risk to the reliability of the information that
the systems maintain and increase the amount of time needed to locate key information.
The FDIC recognizes that its current portfolio of systems supporting consumer
compliance and CRA activities does not efficiently or effectively support existing
business processes. In 2013, the FDIC began a multi-year initiative to modernize
SOURCE and certain other ancillary compliance-related systems. The FDIC also has
plans to modernize ViSION. The FDIC should consider the findings in this report in
formulating and implementing its information systems modernization efforts.


Audit Results
We found that the FDIC’s actions to address the consumer protection violations and
deficiencies that we reviewed generally aligned with applicable policies, procedures, and
guidelines. In addition, compliance examination reports identified the specific laws and
regulations that were violated, the nature and causes of the violations, the recommended
corrective actions, and the responses of the institutions’ management. Further, follow-up
examinations or visits were conducted timely, and CMPs that the FDIC issued were well
supported and documented and included a legal opinion that addressed consideration of
applicable laws, violations, mitigating factors, and monetary penalties.

While the above results are positive, the FDIC’s compliance information systems used to
record, track, and monitor consumer compliance activities did not always contain
pertinent information on the following compliance activities:

      the basis for decisions on whether and what type of supervisory action should be
       taken,

      restitutions to consumers harmed by an institution’s failure to comply with
       consumer protection laws and regulations, and

      consultations among Field Office, Regional Office, and Washington Office
       officials regarding proposed supervisory actions.

In some cases, this information was maintained outside of the FDIC’s compliance
information systems in memoranda and other documents. Recording and tracking key
supervisory information in a consistent and centralized manner helps to ensure its
reliability, reduces the amount of time and effort needed to locate information and
respond to inquiries, and mitigates the risk associated with staff turnover. Such an
approach also provides increased assurance of consistency in the supervision of
institutions.

DCP has established a number of internal controls to promote consistency among its
Regional Offices in the handling of actions to address violations and deficiencies. Such
controls include the Compliance Examination Manual, the FIAP Manual, the National
Review Examiner Manual (NRE Manual), a consultation process, restitution tracking


                                             5
procedures, and the compliance examination report review process. In addition, the
FDIC established the CRC and has issued guidance to examiners on consumer protection
matters to help ensure a consistent supervisory approach. Further, the supervisory
matters that we reviewed, including actions taken to address violations and deficiencies,
generally appeared to be consistently handled by DCP’s Regional Offices. However, we
did note differences among DCP’s regional consultation policies and procedures that the
FDIC should consider as part of its initiative to update those procedures for consistency
with recently-issued national consultation procedures.

In addition, we identified two potential control improvements that we did not consider
significant in the context of the audit objective. These improvements pertain to how DCP
records and organizes information on the results of CRC proceedings and referrals of
violations to other federal agencies. We communicated these issues separately to DCP
management officials. Our report also includes an observation that DCP’s guidance to
examiners on assigning compliance ratings allows more flexibility than the definitions
provided in the UICCRS. DCP officials informed us that there have been high-level
discussions among FFIEC participants about the need to clarify the UICCRS ratings
definitions.


Recording Supervisory Information in the FDIC’s Compliance
Information Systems
Although the FDIC’s compliance information systems contained information pertaining
to key supervisory actions for the institutions we reviewed, we did note exceptions. As
described below, the systems did not always contain pertinent information regarding
decisions about supervisory actions, restitution payments to consumers, or consultations
about proposed supervisory actions.

Basis for Decisions on Supervisory Actions

The Compliance Examination Manual states that SOURCE is the system of record for the
compliance examination program. The system is used extensively by field supervisors,
examiners, review examiners, and Washington Office policy staff for reporting and
management decision-making. Among other functions, SOURCE captures examination
summary information, tracks information through the consultation process, and facilitates
the reporting of examination data for legislatively-mandated reporting. Additionally,
FIAT serves as a central source of information for supervisory actions.

The FDIC’s compliance information systems did not contain information that adequately
explained the basis for decisions on supervisory actions—such as actions that were taken
or actions that were recommended by DCP or supported by Legal Division opinions but
ultimately not taken—for 15 of the 93 institutions that we reviewed. Several examples
follow.




                                            6
       For five institutions, DCP and/or Legal Division staff recommended or considered
        a stronger supervisory action (e.g., restitution order, CMP, or C&D/CO) than was
        ultimately taken. However, the FDIC’s compliance information systems did not
        contain an explanation of why the stronger actions were not ultimately pursued or
        the basis for the actions that were taken.

       For three institutions, the FDIC’s compliance information systems did not
        indicate why supervisory actions related to Flood Insurance violations cited
        during examinations were not pursued. In one case, the institution’s failure to
        comply with Flood Insurance requirements resulted in consumer harm totaling
        $78,000.6 In the other two cases, the systems did not indicate why the cited
        violations did not represent a pattern or practice requiring the payment of CMPs.

       For two institutions with the same action in place for several years, the FDIC’s
        compliance information systems did not indicate why stronger action had not
        been pursued to address continued deficiencies in the institutions’ compliance
        management systems.

DCP Regional Office officials provided additional information pertaining to the matters
described above. These officials acknowledged the importance of maintaining current,
accurate, and complete information about supervisory actions in the FDIC’s compliance
information systems. In addition, DCP officials in the Washington Office indicated that
information in the FDIC’s compliance information systems pertaining to supervisory
actions has historically focused on actions that have been taken and that additional
emphasis on documenting actions considered or recommended, but not pursued, would
be beneficial. Recording such information in DCP’s compliance information systems
could provide greater assurance of consistency in the supervision of institutions and
facilitate planning for subsequent examinations.

Restitution to Consumers

A DCP RD Memorandum, entitled Procedures for Handling the Payment,
Documentation, and Tracking of Restitution to Customers (Transmittal No. 2012-001-
DCP, dated March 12, 2012), states that when examiners identify a violation where
restitution to consumers is appropriate, the Regional Office will track the amount of the
restitution and the number of consumers impacted in FIAT.7 FIAT is designed to track
two types of restitution: voluntary and ordered. According to DCP officials, voluntary
restitution occurs when an institution agrees to pay restitution immediately upon
notification of a violation and before the conclusion of the examination. Ordered
6
  Section 339.3(a) of the FDIC Rules and Regulations requires that the building, mobile home, or personal
property securing a designated loan be covered by flood insurance for the term of the loan. Section 339.7
requires a financial institution or servicer to purchase insurance on the borrower’s behalf if the borrower
fails to obtain flood insurance within 45 days after notification.
7
  Prior to the issuance of the RD Memorandum, DCP tracked restitution using various manual and
automated systems depending on the type of violation or corrective program involved. The use of disparate
systems created difficulty in identifying and aggregating the amount of consumer harm addressed through
examination and enforcement activities.


                                                    7
restitution occurs when the FDIC pursues an enforcement action to compel an institution
to pay restitution. When an institution discovers and corrects a violation and pays
restitution in a timely manner outside of the examination process, no recordkeeping of the
restitution is required by DCP policy.
 
DCP generally recorded and tracked the amount of restitution and the number of
consumers impacted in FIAT for the institutions we reviewed. However, we did note
exceptions. Specifically, FIAT lacked required information for 5 of the 34 institutions in
our sample that involved voluntary or ordered restitution payments subsequent to the
issuance of DCP’s March 2012 RD Memorandum. Details regarding these exceptions
follow.

      For two of the institutions, FIAT contained no information about required
       restitution for violations cited in the compliance examination reports.
       Supervisory documentation that we reviewed outside of FIAT indicated that one
       institution had ECOA violations involving restitution payments totaling $750 to
       47 consumers and the other institution had a TILA violation involving one
       consumer, but we were not able to locate documentation indicating the amount of
       required restitution.

      For the three remaining institutions, FIAT contained information pertaining to the
       amount of restitution and the number of consumers impacted for some, but not all,
       of the violations identified during the examinations. Supervisory documentation
       that we reviewed outside of FIAT indicated that one institution had ECOA
       violations involving restitution payments totaling $4,269 to 21 consumers, one
       institution had a TILA violation involving a restitution payment of $420 to one
       consumer, and the other institution had a RESPA violation involving a restitution
       payment of $300 to one consumer. 

DCP’s March 2012 RD Memorandum requires the Regional Offices to enter restitution
payments in FIAT by the eighth day of the month following the month of payment.
Incomplete information in FIAT regarding restitutions presents an increased risk that
consumers impacted by violations of laws and regulations may not receive appropriate
restitution and that reports to management and to the Congress may not be complete.
Management emphasis on the importance of recording restitution information in FIAT as
prescribed in the March 2012 RD Memorandum could help to mitigate the types of
exceptions that we identified.

We also noted inconsistencies among regional DCP officials with respect to their
understanding of when restitution should be categorized as voluntary or ordered. Some
DCP officials indicated that they categorize restitutions as ordered if there is a statutory
requirement for the institution to pay the restitution (such as for certain TILA violations)
or if the FDIC has authority to impose restitution, such as with certain instances under
Section 8(b) of the Federal Deposit Insurance Act (FDI Act). However, other DCP
officials indicated that they categorize such restitutions as voluntary if the institution
agrees to pay the restitution prior to DCP pursuing a formal order. This inconsistency



                                              8
can be attributed, in part, to the lack of a formal definition for voluntary and ordered
restitution. Inconsistent treatment of restitution can affect the reliability of reporting as
FIAT is designed to track voluntary and ordered restitution separately.

Consultations

According to the NRE Manual, the consultation process is intended to promote ongoing
communication of examination issues between field staff and management and applicable
Regional Office and Washington Office staff and management. Consultations help to
ensure that examination processes and procedures are consistently applied on a regional
and nationwide basis. In addition, DCP’s Washington Office has issued several RD
Memoranda that provide guidance on the consultation process, and DCP’s Regional
Offices have developed their own consultation policies and procedures that support the
national consultation process. Both the NRE Manual and the regional consultation
policies and procedures define the types of actions and issues that require a consultation,
and both state that consultations must be recorded in SOURCE.

Of the 58 institutions that we reviewed that involved issues or actions requiring a
consultation, we noted 10 instances in which SOURCE did not indicate whether a
consultation had occurred. These issues and actions consisted of the following:8

          Consent Orders – 3 instances.
          Restitutions – 3 instances.
          MOUs – 2 instances.
          BBRs – 1 instance.
          Potential or actual RESPA Section 8 violations – 1 instance.

We also noted six instances in which a consultation regarding an MOU or BBR was
incorporated into consultations about the institutions’ ratings or violations. Regional
consultation procedures state that separate records should be created in SOURCE for
each issue or action requiring a consultation.

The exceptions we noted may be attributed to oversights or a lack of awareness on the
part of examiners regarding the requirements for recording consultations in SOURCE. In
some cases, consultation discussions may have occurred and were documented outside of
SOURCE. Recording consultations in SOURCE helps to ensure that relevant
information is readily available to those who need it and increases management’s
assurance of appropriate, timely, and consistent treatment of issues and actions requiring
concurrence from Regional Offices and/or the Washington Office.




8
    It should be noted that some examinations involved multiple issues and/or actions requiring consultation.


                                                       9
Recommendations

We recommend that the Director, DCP:

    1. Emphasize to examination staff the importance of recording information in
       SOURCE regarding the basis for decisions on supervisory actions, including
       when supervisory actions are considered or recommended but ultimately not
       taken.

    2. Review and update, as appropriate, current controls designed to ensure that
       relevant information about restitutions is recorded in FIAT and develop formal
       definitions for voluntary and ordered restitutions to ensure consistent tracking and
       reporting.

    3. Reinforce to examiners DCP’s policy requirement to create records in SOURCE
       for matters requiring consultation.


Regional Consultation Policies and Procedures
DCP’s six Regional Offices have each established consultation policies and procedures to
augment the division’s national consultation procedures contained in the NRE Manual
and RD Memoranda. The regional policies and procedures identify specific matters that
require consultation among examination teams in local Field Offices and personnel in the
Regional Offices. We reviewed the regional consultation policies and procedures and
identified the following variations:

       Restitution. The minimum dollar threshold amount of restitution requiring a
        consultation ranges from $2,500 to $15,000 among the Regional Offices. In some
        regions, consultations for restitution are only required for violations of certain
        laws or regulations and are not tied to dollar thresholds.

       Referrals. Regional consultation policies and procedures vary with regard to the
        apparent violation of specific laws that require a consultation.

       RESPA. Some regions require consultations for potential violations of Section 8
        of RESPA, while others require consultations only for cited or unusual violations
        of the section.9

       Ratings and Supervisory Actions. Only one region requires a consultation to
        upgrade a financial institution from a “3” rating or to terminate an informal
        supervisory action.

9
 Section 8 of RESPA prohibits anyone from giving or accepting a fee, kickback, or anything of value in
exchange for referrals of settlement service business involving a federally-related mortgage loan.
Violations of this section are subject to criminal and civil penalties.


                                                   10
The differences we noted warrant review to ensure that consumer compliance issues and
supervisory actions are considered and applied in a consistent manner across regions.
DCP Transmittal No. 2013-013-DCP, issued in December 2013, requires the Regional
Directors to review and update their regional consultation procedures to ensure they are
consistent with the current national consultation procedures. Accordingly, this is an
opportune time for the Regional Offices to review and consider the variations noted
above.

Recommendation

We recommend that the Director, DCP:

   4. Review and update, as appropriate, Regional Office consultation policies and
      procedures to ensure consistency.


Observation: Consumer Compliance Rating System
The UICCRS was established in 1980 to provide a general framework for evaluating and
integrating significant compliance factors in order to assign a consumer compliance
rating to each federally-regulated commercial bank, savings and loan association, mutual
savings bank, and credit union. The purpose of the rating system is to reflect in a
comprehensive and uniform fashion the nature and extent of an institution’s compliance
with consumer protection and civil rights statutes and regulations. According to the
UICCRS, all relevant factors must be evaluated and weighed in assigning a consumer
compliance rating. In general, these factors include the nature and extent of compliance
with consumer protection and civil rights statutes and regulations, the commitment of
management to compliance and its ability and willingness to take the necessary steps to
assure compliance, and the adequacy of operating systems, including internal procedures,
controls, and audit activities designed to ensure compliance on a routine and consistent
basis. The assignment of ratings may also incorporate other factors that impact
significantly on the overall effectiveness of an institution’s compliance efforts.

We observed that DCP’s policy and guidance to examiners on assigning compliance
ratings allows more flexibility than the definitions provided in the UICCRS. Specifically,
the UICCRS definition for a “2” rating states, in part:

       There is no evidence of discriminatory acts or practices, reimbursable violations,
       or practices resulting in repeat violations.

The FDIC’s Compliance Examination Manual incorporates this same definition, but also
states:
        In assigning ratings under this system, it is important to recognize that all the
        attributes in each rating category will not necessarily apply to each institution.
        …examiners are expected to use reasoned judgment to reach sensible,
        supportable conclusions about an institution’s performance based on the totality
        of the examination findings.


                                            11
DCP officials informed us that there are circumstances in which examiners may assign a
“2” rating even when reimbursable and/or repeat violations exist. Indeed, we identified
14 instances in our review of selected financial institutions wherein reimbursable or
repeat violations were cited in compliance examination reports and the institution was
assigned a “2” rating. In those instances, it was the judgment of examiners that the
restitution amounts and nature of the violations did not warrant lower ratings. We also
noted that DCP updated its internal guidance in March 2012 to require the consistent use
of the term “restitution,” rather than “reimbursement,” to describe payments to harmed
consumers.

Unlike the FDIC guidance, the UICCRS does not provide for flexibility in its ratings
definitions. However, the FDIC’s view regarding the application of examiner judgment
in evaluating the overall risk of an institution seems reasonable, particularly in light of
the UICCRS not being updated since 1980. In this regard, the UICCRS may not fully
reflect current risk-based approaches to supervisory matters. DCP officials informed us
that there have been high-level discussions among FFIEC participants about the need to
clarify the UICCRS ratings definitions.


Corporation Comments and OIG Evaluation
The Director, DCP, provided a written response, dated March 17, 2014, to a draft of this
report. The response is presented in its entirety in Appendix 4. In the response, the
Director, DCP, concurred with all four of the report’s recommendations and described
planned corrective actions that address the recommendations. A summary of the
Corporation’s corrective actions is presented in Appendix 5. The planned corrective
actions are responsive to the recommendations, and the recommendations are resolved.

The response notes that a draft of this report indicated that one of the FDIC’s Regional
Offices—the Atlanta Regional Office—did not have regional consultation policies or
procedures. The response indicates that based on DCP’s discussions with Atlanta
Regional Office personnel, the region does have consultation procedures in its Standard
Operating Procedures manual. Prior to finalizing our report, we obtained and reviewed
these procedures and updated our report accordingly. The additional information did not
affect our findings, conclusions, or recommendations.

In response to the report’s observation, the Director, DCP, agreed that the UICCRS could
be improved by clarifying the ratings definitions. DCP plans to contact other agencies to
determine whether there is mutual interest in updating the UICCRS definitions to address
our observation and other matters.




                                             12
                                                                                Appendix 1

               Objective, Scope, and Methodology
Objective

The performance audit objective was to determine whether the FDIC’s actions to address
consumer protection violations and deficiencies comply with applicable policies,
procedures, and guidelines and the extent to which the actions are consistently handled by
DCP’s Regional Offices.

We conducted this audit from April 2013 through January 2014 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective. The conclusions and findings in this report are based on information
provided by the FDIC and certain analyses that we performed through January 2014. We
caution that projecting the results of our audit to future periods is subject to the risk that
controls may become inadequate because of changes in conditions or because compliance
with controls may deteriorate.

Scope and Methodology

To obtain a proper understanding of the FDIC’s controls for addressing consumer
protection violations and deficiencies and ensuring a consistent approach, we:

      Identified and became familiar with key applicable consumer compliance policies,
       procedures, and guidelines. Such criteria included, but was not limited to:

            o consumer protection laws and regulations, including ECOA, FHAct, FTC
              Act, HMDA, Flood Insurance, RESPA, and TILA;
            o FDIC rules and regulations related to consumer protection;
            o the FFIEC’s UICCRS definitions;
            o interagency statements of policy on fair lending, CMPs, and
              administrative enforcement of TILA;
            o the Compliance Examination Manual, FIAP Manual, and NRE Manual;
            o DCP’s consultation and referral procedures;
            o RD Memoranda related to fair lending, UDAP, RESPA, HMDA, Flood
              Insurance, TILA, CMPs, and general compliance procedures; and
            o DCP’s Regional Office consultation policies and procedures.

      Identified and became familiar with key controls and processes, such as the role
       and responsibility of the CRC and DCP’s compliance examination report review
       process.




                                             13
                                                                                             Appendix 1

                  Objective, Scope, and Methodology
        Spoke with Washington Office and Regional Office officials in DCP and the
         Legal Division about the FDIC’s approach and processes for addressing consumer
         protection violations and deficiencies.

We assessed whether the FDIC’s actions to address consumer protection violations and
deficiencies complied with applicable policies, procedures, and guidelines and the extent
to which those actions were consistently handled by reviewing supervisory information
for a non-statistical sample of 93 financial institutions. Non-statistical samples are
judgmental and cannot be projected to the population of institutions. A description of our
sampling methodology follows.

Our sample consisted of four strata. The first two strata focused on deficiencies and
violations, respectively, and were drawn from a universe of 472 institutions that
SOURCE identified as having been examined from October 1, 2012 to March 31, 2013.
Within this universe, SOURCE identified 27 institutions with deficiencies in their
compliance management systems and 413 institutions with violations of consumer
protection laws or regulations. We selected 16 institutions with deficiencies and
32 institutions with violations for detailed analysis. We selected these institutions in such
a manner as to obtain representation from all six of DCP’s Regional Offices and a mix of
violation types.10

The second two strata focused on enforcement actions and referrals, respectively, and
were drawn from a universe of 570 supervisory actions (covering 546 institutions) and
29 referrals (covering 29 institutions) that FIAT or DCP indicated were issued or made
from April 1, 2011 to March 31, 2013. We selected 78 supervisory actions (covering
71 institutions) and 11 referrals for detailed analysis. Our selections were made in such a
manner as to obtain representation from all six of DCP’s Regional Offices and a mix of
action types.11 Table 1 summarizes the institutions that we selected for review.

Table 1: Institutions Selected for Review
                                                                           Number
                                                    Total Number                            Percentage
 Sample Strata                                                         of Institutions
                                                    of Institutions                           of Total
                                                                          Selected*
 Strata 1: Deficiencies                                  27                     16              59%
 Strata 2: Violations                                   413                     32                8%
 Strata 3: Supervisory Actions                          546                     71              13%
 Strata 4: Referrals                                     29                     11              38%
Source: FDIC Office of Inspector General (OIG) analysis of deficiencies and violations reflected in
SOURCE, enforcement actions reflected in FIAT, and referral information provided by DCP.
* Some institutions were selected more than once for multiple violations or actions covered by our review.


10
   The violations that we selected included noncompliance with provisions of TILA, Flood Insurance,
ECOA, RESPA, HMDA, and other consumer protection laws and regulations. DCP utilizes a three-tiered
system to classify violations to reflect the level of risk of consumer harm resulting from the violation. We
selected violations at all three levels.
11
   Supervisory actions that we selected included BBRs, MOUs, C&Ds/COs, CMPs, and restitution orders.

                                                     14
                                                                                           Appendix 1

                  Objective, Scope, and Methodology
Initially, we selected 126 unique financial institutions for review. After reviewing all of
the institutions in Stratas 1 and 2 and most of the institutions in Stratas 3 and 4, it became
evident to us that we had sufficient evidence to address our audit objective. Accordingly,
we discontinued further analysis of institutions in Stratas 3 and 4 as we determined that it
would not be cost-beneficial to review the remaining institutions. Table 2 provides a
breakdown of the 93 institutions that we reviewed.

Table 2: Institutions Actually Reviewed
                                    Number of                    Number of
                                                                                         Percentage
 Strata                       Institutions Selected        Institutions Actually
                                                                                          Reviewed
                                   for Review*                  Reviewed**
  Deficiencies                                    16                          16                   100%
  Violations                                      32                          32                   100%
  Supervisory Actions
     BBR                                             18                          6                 33%
     MOU                                             18                          9                 50%
     C&D/CO                                          14                          8                 57%
     CMP                                             18                         15                 83%
     Restitution                                     10                          5                 50%
  Referrals                                          11                          8                 73%
  Total                                             137                         99                 72%
Source: OIG analysis of institutions reviewed.
* Some institutions were selected more than once for multiple violations or supervisory actions.
** Ninety-three unique institutions were reviewed in total.

Our analysis of supervisory information for the institutions we reviewed was generally
limited to information contained in SOURCE, FIAT, RADD, and R3. We also spoke
with officials in DCP to follow up on certain issues that we noted during our analysis.
Our work did not include a review of examination workpapers to determine whether
examiners had identified all relevant deficiencies and violations or made all relevant
referrals to other agencies.

We engaged KPMG LLP (KPMG) to perform a detailed analysis of the institutions we
sampled. KPMG completed an analysis for all but 1 of the 93 institutions. The OIG
performed the analysis for the remaining institution because KPMG notified us of a
potential conflict of interest with that institution. The OIG retained overall responsibility
for conducting the audit, and we provided oversight of KPMG’s work in our role as
contract oversight manager and technical monitor. In this role, we performed certain
quality control procedures to assure ourselves that KPMG’s work and results were
consistent with professional standards and applicable OIG policies and procedures. The
OIG’s quality control work was in addition to KPMG’s quality assurance work.




                                                    15
                                                                                    Appendix 1

                    Objective, Scope, and Methodology
Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

As described in the Scope and Methodology section of this Appendix, we performed
audit procedures to identify and obtain an understanding of the FDIC’s controls for
addressing consumer protection violations and deficiencies and ensuring a consistent
approach. We also assessed the implementation of those controls by performing a
detailed analysis of a sample of institutions. Consistent with our audit objective, we
did not assess the adequacy of DCP’s overall internal control or management control
environment. Our report identifies certain internal control weaknesses warranting
management’s attention.

We relied on data in SOURCE and FIAT to select a sample of institutions for detailed
analysis.12 We determined that the data in these systems was sufficiently reliable for
purposes of selecting a sample based on the nature of our planned testing, a comparison
of information in various reports and documents generated by other information systems,
and discussions with DCP management. Although DCP uses various systems to capture
information related to consumer violations and deficiencies, we determined that
information system controls were not significant to our objective. Accordingly, we did
not assess the design or effectiveness of information system controls as part of this
audit. However, for each of the sampled items, we did evaluate whether DCP
information systems appropriately captured pertinent information about the supervisory
actions taken or considered.

The Government Performance and Results Act of 1993 (the Results Act), as amended,
directs Executive Branch agencies to develop a customer-focused strategic plan, align
agency programs and activities with concrete missions and goals, and prepare and
report on annual performance plans. We identified one DCP Divisional Goal
established in 2012 that was relevant to our audit objective. The goal states:

           Take prompt and effective supervisory action to address problems identified
           during compliance examinations of FDIC-supervised institutions that receive a
           composite “3,” “4,” or “5” rating for compliance with consumer protection and
           fair lending laws, and to ensure that each institution is fulfilling the requirements
           of any corrective program that has been implemented and that the actions taken
           by the banks are effectively addressing the underlying concerns identified during
           the examination.

As mentioned previously in this report, we found that follow-up examinations or visits
for the institutions in our sample were conducted in a timely manner.

Regarding compliance with laws and regulations, our report identifies weaknesses in
internal controls that, if not addressed, could lead to incomplete tracking and reporting
12
     The sample of referrals was selected from a separate list maintained by DCP.

                                                      16
                                                                             Appendix 1

               Objective, Scope, and Methodology
pertaining to consumer compliance activities. In addition, we assessed the risk of fraud
and abuse related to our objective in the course of evaluating audit evidence.




                                            17
                                                                          Appendix 2


                            Glossary of Terms
      Term                                       Definition

Bank Board       BBRs are informal commitments adopted by a financial institution’s
Resolution       Board of Directors (often at the request of the FDIC) directing the
(BBR)            institution’s personnel to take corrective action regarding specific
                 noted deficiencies. BBRs may also be used as a tool to strengthen
                 and monitor an institution’s progress with regard to a particular
                 component rating or activity.
Cease-and-Desist Orders may be issued to stop violations of law, rule, or regulation or
Orders (C&D      unsafe or unsound practices, as well as to require affirmative action
Orders or        to correct any conditions resulting from such violations or practices.
Consent Orders) Orders may be issued after notice and hearing, or after stipulation by
                 the institution. By ordering an institution to cease and desist from
                 violations or practices and/or to take affirmative actions, the FDIC
                 may prevent the institution’s problems from reaching such serious
                 proportions as to require more severe corrective measures. Section
                 8(b) of the FDI Act authorizes the FDIC to issue Orders.
Civil Money      Section 8(i) of the FDI Act grants the FDIC authority to impose
Penalties (CMP) CMPs against insured depository institutions and institution-
                 affiliated parties. CMPs may be assessed for violations of final and
                 temporary orders, written agreements with the FDIC, and laws and
                 regulations; unsafe and unsound practices; and breaches of fiduciary
                 duty.
Community        The Community Reinvestment Act encourages federally insured
Reinvestment     banks to meet the credit needs of their entire community. Part 345
Act (CRA)        of the FDIC Rules and Regulations states that each appropriate
                 federal financial supervisory agency is required to assess an
                 institution’s record of helping to meet the credit needs of the local
                 communities in which the institution is chartered, consistent with the
                 safe and sound operation of the institution, and to take this record
                 into account in the agency’s evaluation of an application for a
                 deposit facility by the institution.
Equal Credit     ECOA prohibits certain discriminatory practices, including creditor
Opportunity Act practices that discriminate based on race, color, religion, national
(ECOA)           origin, sex, marital status, or age.
Fair Housing Act FHAct prohibits discrimination based on race, color, religion,
(FHAct)—the      national origin, sex, family status, and handicap in residential real
Civil Rights Act estate-related transactions. HUD’s regulations implementing FHAct
of 1968, Title   are found at 24 CFR Part 100. The FDIC Rules and Regulations,
VIII             Part 338, Fair Housing, is the FDIC’s implementing regulation for
                 FHAct.
Home Mortgage HMDA was enacted to provide information to the public and federal
Disclosure Act   regulators regarding how depository institutions are fulfilling their
(HMDA)           obligations towards community housing needs. The regulation


                                          18
                                                                           Appendix 2


                          Glossary of Terms
                 requires an institution to report data to its supervisory agency about
                 home purchase loans, home improvement loans, and refinancings
                 that it originates or purchases, or for which it receives applications,
                 and to disclose certain data to the public.
Memorandum of    An MOU is an informal agreement between an institution and the
Understanding    FDIC, which is signed by both parties. A State Authority may also
(MOU)            be a party to the agreement. MOUs are designed to address and
                 correct identified weaknesses in an institution’s compliance position.
                 The FDIC generally uses MOUs instead of BBRs, especially when
                 there is reason to believe the deficiencies noted during an
                 examination need a more structured program or specific terms to
                 effect corrective action.
Real Estate      RESPA covers loans secured with a mortgage placed on a one-to-
Settlement       four family residential property. These include most home purchase
Procedures Act   loans, assumptions, refinancings, property improvement loans, and
(RESPA)          equity lines of credit. RESPA requires that borrowers receive
                 disclosures at various times. Some disclosures spell out the costs
                 associated with settlement, outline lender servicing and escrow
                 account practices, and describe business relationships between
                 settlement service providers.
Referrals        ECOA provides for referrals to DOJ or notifications to HUD of
                 suspected instances of credit discrimination as well as certain other
                 violations of ECOA or FHAct. The referral provisions of ECOA
                 require that the federal financial institution regulatory agencies refer
                 matters to DOJ whenever the agency has reason to believe that a
                 creditor has engaged in a pattern or practice of discouraging or
                 denying applications for credit in violation of ECOA’s general rule
                 prohibiting discrimination. Further, whenever one of the agencies
                 has reason to believe, as a result of receiving a consumer complaint,
                 conducting a consumer compliance examination, or otherwise, that:
                 (a) a violation of ECOA has occurred, and (b) has reason to believe
                 that the alleged violation would also be a violation of the FHAct,
                 and (c) does not refer the matter to DOJ, the agency must notify
                 HUD of the alleged violation.
Restitution      Financial consumer protection laws and regulations are designed to
                 protect consumers in financial transactions. Violations of such laws
                 and regulations can result in harm to consumers where restitution is
                 appropriate. Restitution can be voluntary or ordered. According to
                 DCP officials, voluntary restitution occurs when an institution
                 agrees to pay restitution immediately upon notification of a violation
                 and before the conclusion of the examination. Ordered restitution
                 occurs when the FDIC pursues an enforcement action to compel an
                 institution to pay restitution. Section 8(b)(6)(A) of the FDI Act
                 authorizes the FDIC to issue restitution orders.

                                         19
                                                                        Appendix 2


                         Glossary of Terms
Truth in         Contained in Title I of the Consumer Credit Protection Act, the
Lending Act      Truth in Lending Act requires meaningful disclosure of credit and
                 leasing terms.
Unfair or        Section 5 of the Federal Trade Commission Act prohibits unfair or
Deceptive Acts   deceptive acts or practices in or affecting commerce. Such acts or
or Practices     practices are illegal; can cause significant financial injury to
(UDAP)           consumers; erode consumer confidence; and present significant
                 credit and asset quality risk, undermining the financial soundness of
                 banking organizations.
Uniform          The UICCRS was approved by the Federal Financial Institutions
Interagency      Examination Council to reflect in a comprehensive and uniform
Consumer         fashion the nature and extent of an institution’s compliance with
Compliance       consumer protection and civil rights statutes and regulations. The
Rating System    rating system is based upon a scale of 1 through 5 in increasing
(UICCRS)         order of supervisory concern. Thus, “1” represents the highest rating
                 and consequently the lowest level of supervisory concern, while “5”
                 represents the lowest, most critically deficient level of performance
                 and, therefore, the highest degree of supervisory concern.




                                       20
                                                                 Appendix 3


               Acronyms and Abbreviations
Acronym:      Explanation:
BBR           Bank Board Resolution
C&D Order     Cease and Desist Order
CFPB          Consumer Financial Protection Bureau
CMP           Civil Money Penalties
CRA           Community Reinvestment Act
CO            Consent Order
CRC           Case Review Committee
DCP           Division of Depositor and Consumer Protection
DOJ           Department of Justice
ECOA          Equal Credit Opportunity Act
FDI Act       Federal Deposit Insurance Act
FDIC          Federal Deposit Insurance Corporation
FFIEC         Federal Financial Institutions Examination Council
FHAct         Fair Housing Act
FIAP Manual   Formal and Informal Action Procedures Manual
FIAT          Formal and Informal Action Tracking System
HMDA          Home Mortgage Disclosure Act
HUD           Department of Housing and Urban Development
KPMG          KPMG LLP
MOU           Memorandum of Understanding
NRE Manual    National Review Examiner Manual
OIG           Office of Inspector General
R3            Regional Report Repository
RADD          Regional Automated Document Distribution and Imaging System
RD            Regional Directors
RESPA         Real Estate Settlement Procedures Act
SOURCE        System of Uniform Reporting of Compliance and CRA Examinations
TILA          Truth in Lending Act
Treasury      Department of the Treasury
UDAP          Unfair or Deceptive Acts or Practices
UICCRS        Uniform Interagency Consumer Compliance Rating System
ViSION        Virtual Supervisory Information On the Net




                                    21
                                                                                                           Appendix 4

                             Corporation Comments


Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                             Division of Depositor and Consumer Protection

                                                                                       March 17, 2014

 TO:                  Stephen M. Beard
                      Deputy Inspector General for Audits and Evaluations

FROM:                 Mark Pearce /Signed/
                      Director

SUBJECT:              Draft Audit Report Entitled, The FDIC's Actions to Address Consumer
                      Protection Violations and Deficiencies (Assignment No. 2013-001)

 The Division of Depositor and Consumer Protection (DCP) reviewed the above-titled audit,
 the first OIG audit related to DCP’s operation since FDIC created the Division in 2011. DCP concurs with the
 OIG findings that:

          1. DCP’s actions to address consumer protection violations and deficiencies in FDIC-
             supervised institutions are generally aligned with applicable policies, procedures, and
             guidelines, and are generally handled consistently by DCP’s Regional Offices;
          2. examination reports identified the specific violations, their nature and cause, and
             institutions’ responses;
          3. examinations and visits are conducted in a timely manner; and
          4. Civil Money Penalties, when issued, were well-supported including Legal opinions.

 The audit report identifies four recommendations and one observation to enhance processes for
 addressing consumer protection violations and deficiencies identified during compliance
 examinations. DCP agrees with all of the recommendations in the audit report. The specific
 actions DCP will undertake to address each of the recommendations and the observation are
 described briefly below.

 OIG Audit Recommendation 1: Emphasize to examination staff the importance of recording
 information in SOURCE regarding the basis for decisions on supervisory actions, including
 when supervisory actions are considered or recommended, but ultimately not taken.

 DCP Response: Documentation of the consultation process is covered in the revised
 Consultation Policy and will be discussed at the Review Examiners Training Session in August
 2014. While Review Examiners have primary responsibility for maintaining consultation
 records in SOURCE, DCP will distribute information about the expected documentation to all
 examination-related staff as an update to the National Review Examiner Manual which will be
 completed by September 30, 2014.




                                                    22
                       Appendix 4

Corporation Comments




         23
                       Appendix 4

Corporation Comments




         24
                                                                           Appendix 5


   Summary of the Corporation’s Corrective Actions
This table presents corrective actions taken or planned by the Corporation in response to
the recommendations in the report and the status of the recommendations as of the date of
report issuance.


 Rec.    Corrective Action: Taken          Expected    Monetary   Resolved:a    Open or
 No.     or Planned                       Completion   Benefits   Yes or No     Closedb
                                             Date

   1     Documentation expectations       9/30/2014      N/A         Yes         Open
         in the revised national
         consultation policy will be
         discussed at the Review
         Examiners Training session
         in August 2014. In addition,
         DCP will distribute
         information regarding
         documentation expectations
         to all examination staff as an
         update to the NRE Manual.
   2     DCP will review current          9/30/2014      N/A         Yes         Open
         instructions on voluntary and
         ordered restitution and revise
         them as needed. In addition,
         the revised definitions and
         usage of FIAT will be
         discussed at the Review
         Examiner Training session in
         August 2014. Further, the
         revisions will be distributed
         to all examination staff as an
         update to the NRE Manual.
   3     Requirements for                 9/30/2014      N/A         Yes         Open
         documenting consultations in
         SOURCE were updated in
         the revised national
         consultation policy and will
         be included in regional
         consultation policies as
         discussed in the corrective
         action for
         Recommendation 4. The
         updates will be
         communicated to all
         examination staff through
         planned updates to the
         regional consultation policies
         and the NRE Manual.


                                              25
                                                                                              Appendix 5

      Summary of the Corporation’s Corrective Actions

    Rec.     Corrective Action: Taken            Expected         Monetary        Resolved:a       Open or
    No.      or Planned                         Completion        Benefits        Yes or No        Closedb
                                                   Date

      4      A team including one                 6/30/2014          N/A              Yes            Open
             Review Examiner from each
             region has been established
             to review all of the regional
             consultation policies and
             procedures. The team will
             develop recommendations to
             ensure that the policies are
             consistent regarding the
             types of issues that are
             included, time frames for
             processing, and protocols
             that are aligned with the
             national consultation policy.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                  Monetary benefits are considered resolved as long as management provides an amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                       26
